           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


    SUPPLEMENTAL SECURITY INCOME
    OVERPAYMENTS TO CONCURRENT
     BENEFICIARIES RESULTING FROM
   INCORRECT BENEFIT CALCULATIONS

    September 2009   A-06-09-29103




AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                           SOCIAL SECURITY
MEMORANDUM

Date:   September 24, 2009                                                         Refer To:

To:     The Commissioner

From:   Inspector General

Subject: Supplemental Security Income Overpayments to Concurrent Beneficiaries Resulting
        from Incorrect Benefit Calculations (A-06-09-29103)


        OBJECTIVE
        Our objective was to determine the number of concurrently entitled individuals who
        received excess Supplemental Security Income (SSI) payments as a result of an
        unearned income computation error.

        BACKGROUND

        The Social Security Administration (SSA) pays disability benefits to eligible individuals
        through two programs: Old-Age, Survivors and Disability Insurance (OASDI), which
        provides benefits to wage earners and their families in the event the wage earner
        retires, becomes disabled, or dies; and SSI, which provides payments to financially
        needy individuals who are aged, blind, or disabled. Individuals eligible for benefits
        under OASDI who also qualify for SSI (concurrent beneficiaries) can receive SSI
        payments as long as the combination of benefits does not exceed the Federal Benefit
        Rate (FBR),1 plus a $20 allowance. The FBR increases with the automatic Cost-of-
        Living Allowance (COLA) applied to Social Security benefits. The 2009 COLA
        increased both OASDI benefits and the FBR by 5.8 percent, the largest percentage
        increase since 1982. Effective January 2009, the FBR is $674 for individuals and
        $1,011 for couples. Some States supplement Federal SSI payments with additional
        benefits. In some of these instances, SSA issues a single payment that includes both
        the Federal SSI amount and the applicable State supplement. States must reimburse
        SSA for the supplement amounts.




        1
            The Social Security Act § 1611(a)(1)(A), 42, U.S.C. § 1382(a)(1)(A).
Page 2 - The Commissioner

SSI payments are reduced, or offset, by a recipient’s countable income,2 less certain
allowances.3 SSA first offsets countable income against the FBR. If State
supplemental benefits are involved, and countable income exceeds the FBR, SSA then
offsets any remaining excess income against applicable State supplemental amounts.
For example, a concurrently entitled beneficiary receives a $750 monthly OASDI
payment and has no other countable income. The beneficiary lives in a State that
provides a $250 SSI supplemental benefit. The beneficiary’s $194 SSI payment is
computed as follows.
             Unearned Income (OASDI Benefits)                $750
             Less: Unearned Income Allowance                  (20)
                     Equals: Countable Income                $730

                                       2009 FBR              $674
                         Less: Countable Income               (730)
                        Excess Unearned Income                 (56)
                      SSI Federal Benefit Payable            $ 0

                    SSI Federal Benefit Payable              $ 0
                        Plus: State Supplement                250
                 Less: Excess Unearned Income                  (56)
                          Equals: SSI Payment                $194
During our review of Benefit Payments Mailed to Post Office Boxes, we identified
47 individuals with 2 different Social Security numbers (SSN), who received OASDI
benefits under 1 SSN and SSI payments under the other SSN. Our review of related
payment records revealed that SSA incorrectly offset SSI payments using OASDI
benefit amounts that were not adjusted to reflect recent COLA increases. These
payment computation errors resulted in approximately $41,000 in excessive SSI
payments to the 47 individuals. An SSA representative informed us this error was due
to a systems interface problem that is known to occur when individuals receive both
OASDI and SSI under more than one SSN.

In March 2009, we obtained SSA payment data from 1 of 20 payment record segments
and identified 338 cases where OASDI benefit amounts used in a concurrently entitled
individual’s SSI unearned income offset computation were less than the amount of
OASDI benefits SSA actually paid the beneficiaries. Our review focused on these
338 cases. See Appendix B for a discussion of our scope and methodology.




2
 Countable income includes both countable earned and countable unearned income. OASDI benefits
are considered countable unearned income minus applicable exclusions.
3
 SSI recipients can have $20 per month in unearned income without affecting their SSI payment.
Monthly unearned income in excess of $20 results in a dollar for dollar reduction in SSI payments.
Page 3 - The Commissioner

RESULTS OF REVIEW
We estimate SSA issued overpayments to approximately 6,8004 concurrently entitled
beneficiaries as the result of an SSI unearned income computation error. In
March 2009, we identified 338 concurrent beneficiaries from 1 of 20 payment record
segments, who received excessive SSI payments because SSA erroneously offset their
SSI payment using OASDI benefit amounts that were not adjusted to reflect recent
benefit payment increases. SSA overpaid these beneficiaries $18,604 per month in
Federal SSI payments and another $2,557 per month in State supplemental benefits as
a result of these errors. Most of these errors involved instances where SSA was
collecting OASDI overpayments from the beneficiaries. A systems input intended to
prevent double counting5 unintentionally froze the OASDI benefit amounts used in
subsequent SSI unearned income offset computations. If these errors are not
corrected, we estimate that SSA will issue approximately $5.1 million6 in excessive SSI
payments to these beneficiaries over the next 12 months.

OVERPAYMENTS TO CONCURRENT BENEFICIARIES IN OUR POPULATION

We identified 338 concurrent beneficiaries from 1 payment record segment whose
March 2009 SSI unearned income offset computation used OASDI benefit amounts that
were not adjusted to reflect 2009 benefit increases, and in some cases, other prior year
benefit increases. These computation errors resulted in monthly SSI overpayments
(including both Federal and State supplemental benefit amounts) ranging from $2 to
$678.7

                                   Number of          Monthly
                                  Beneficiaries    Overpayment
                                      225              $2-$49
                                        79            $50-$99
                                        19          $100-$199
                                         6          $200-$299
                                         0          $300-$499
                                         9          $500-$678
                                      338


4
    338 beneficiaries from 1 payment record segment multiplied by all 20 segments.
5
 If SSA determines (1) the beneficiary was concurrently entitled when the OASDI overpayment occurred
and (2) the overpaid amount was used to offset previous SSI payments, the field office staff inputs a
double counting entry. The purpose of this entry is to prevent the offset computation from using the
overpayment deduction to reduce current SSI benefits.
6
 Amount based on $21,161 (18,604 + 2,557) in monthly overpayments to the 338 beneficiaries multiplied
by 12 months multiplied by 20 payment record segments ($21,161 X 12 X 20 = $5,078,640).
7
  Nine records involved monthly overpayments that exceeded $500 per beneficiary. We confirmed that
three payment errors were corrected between April and June 2009. We referred the other six cases to
SSA’s Office of Operations for immediate correction.
Page 4 - The Commissioner

Several factors that contributed to these payment errors are discussed below.

                        Cause of SSI Overpayments to
                           Concurrent Beneficiaries
                         C               SS

                                                                Missing Supplemental
                                                                Income Data Segment
   Unearned Income
                                                                         47
  Reduction Indicator
      Code "Y"
         231




                                                              Multiple SSNs
                                                                    38

                          Unknown         Combination of
                             10              Factors
                                               12




                           We found that 231 beneficiaries’ Supplemental Security
Unearned Income
                           Records contained an Unearned Income Reduction (UMR)
Reduction Indicator
                           indicator code of “Y.” This code indicated that field office staff
Code “Y”
                           determined double counting applied, and amounts SSA
                           withheld from the OASDI payments should not be considered
unearned income to the recipient. However, it also appeared that input of this indicator
mistakenly froze the OASDI benefit amount used in the offset computation during the
entire period SSA recouped overpayments from the beneficiaries via OASDI
withholding. Once SSA input the indicator on the payment record, the unearned income
offset computation no longer considered benefit payment increases awarded to these
beneficiaries. In each of these cases, a smaller OASDI benefit amount was used in the
March 2009 offset computation than the actual current benefit amount paid to these
individuals. Monthly overpayments to these 231 individuals ranged from $2 to $533 and
will continue until the OASDI overpayment withholding stops and SSA employees
remove the UMR indicator codes.

For example, in March 2009, SSA issued a concurrent beneficiary a $647 OASDI
payment and a $528 SSI payment ($123 Federal benefit amount plus a $405 New York
State supplemental benefit amount). However, payment records indicate SSA
erroneously offset the SSI payment using the $443 OASDI benefit amount paid to this
individual in April 2006, instead of the $647 benefit amount SSA actually paid the
beneficiary in March 2009. SSA placed a UMR indicator code “Y” on this record in
April 2006, the same month it began collecting a large overpayment from this individual
Page 5 - The Commissioner

via monthly withholding from OASDI benefits. Because of this error, SSA overpaid this
individual every month since implementation of the 2007 COLA and currently overpays
$204 in monthly SSI payments ($124 in Federal benefits and $80 in New York State
supplemental benefits).

Missing SSI         We found that 47 beneficiaries’ Master Beneficiary Records did not
Data Segment        contain an SSI Data (SID) segment,8 so the current OASDI benefit
                    amount paid to these individuals was not reflected in the unearned
income offset computation. In each of these cases, the computation erroneously
incorporated either a $0 OASDI benefit amount or a lower OASDI benefit amount than
SSA actually paid the beneficiary. The monthly overpayments to these 47 individuals
ranged from $3 to $678 and will continue until these errors are corrected. For example,
in March 2009, SSA issued a concurrent beneficiary a $678 SSI payment
(a $445 Federal benefit plus a $233 California State supplemental benefit). SSA’s
records indicate this payment was offset by $249 in OASDI benefits. However, SSA
actually paid this beneficiary $1,355 in OASDI benefits—an amount that should have
reduced her SSI payment to $0. SSA’s records indicated the $249 amount used in the
March 2009 offset computation equaled the OASDI benefit amount SSA initially paid the
beneficiary in 2005. As a result, SSA overpaid this individual $678 in SSI payments
each month during 2009.

                        Thirty-eight beneficiaries had two different SSNs9 and received
Concurrent
                        OASDI benefits under one SSN and SSI payments under the
Beneficiaries with
                        other. These cases were similar to cases discussed in our report
Two SSNs
                        Benefit Payments Mailed to Post Office Boxes. According to
SSA staff, this is a known, but uncorrected, systems error that occurs when individuals
receive both OASDI and SSI under more than one SSN. Monthly overpayments to
these 38 individuals ranged from $5 to $139 and will continue until the systems error is
corrected.

    Multiple ContributingTwelve beneficiaries were overpaid because their payment
    Factors              records contained a UMR indicator code “Y,” no SID line,
                         and/or some other alert indicating issues. Monthly
overpayments to these 12 individuals ranged from $5 to $522 and will continue until the
errors are corrected.

Reason Unknown           Ten beneficiaries’ SSI unearned income offset computations
                         used incorrect OASDI amounts, but based on our review of
available information, we could not determine how or why the errors occurred. Monthly
overpayments to these 10 individuals ranged from $5 to $564 and will continue until the
errors are corrected.


8
    This SID data segment establishes a link between the OASDI and SSI payment records.
9
 We determined that Numident records for the multiple SSNs assigned to 15 of the 38 individuals were
not cross-referenced to each other.
Page 6 - The Commissioner

On May 20, 2009, we obtained a data extract from all 20 payment record segments
identifying 7,214 payment records where the SSI unearned income offset computation
incorporated OASDI benefit amounts that were less than amounts SSA actually paid the
beneficiaries. We provided these data to SSA Operations staff.

CONCLUSION AND RECOMMENDATIONS
SSA will issue overpayments to about 6,800 concurrently entitled beneficiaries as a
result of an SSI unearned income computation error. SSA computed these
beneficiaries’ SSI unearned income offset based on OASDI amounts that had not been
adjusted to reflect recent payment increases. Various errors contributed to this
problem. If these errors are not corrected, we estimate SSA will issue approximately
$5.1 million in excessive SSI payments to these beneficiaries over the next 12 months.
To assist SSA in preventing additional improper payments to these individuals, we
recommend that SSA:

1. Review the 7,214 cases we provided and take appropriate action to correct the
   errors and prevent future errors.

2. Take action to correct the system error involving beneficiaries whose SSI payment
   record contains a UMR indicator code of “Y” or implement compensating controls to
   timely identify and correct these errors on individual payment records.

3. Take action to correct the system error that results in erroneous deletion of the
   Supplemental Identification line from the Master Beneficiary Record of concurrently
   entitled beneficiaries or implement compensating controls to timely identify and
   correct these errors on individual payment records.

4. Take action to correct the system error that prevents accurate computation of the
   unearned income offset for concurrently entitled individuals receiving OASDI
   benefits under one SSN and SSI payments under a different SSN—or implement
   compensating controls to timely identify and correct these errors on individual
   payment records.

5. Take action to ensure its records pertaining to individuals assigned multiple SSNs
   are appropriately cross-referenced to each other.

AGENCY COMMENTS
SSA agreed with our recommendations. The full text of SSA’s comments is included in
Appendix C.


                                               S
                                               Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms
APPENDIX B – Scope and Methodology
APPENDIX C – Agency Comments
APPENDIX D – OIG Contacts and Staff Acknowledgments
                                                       Appendix A

Acronyms
COLA     Cost-of-Living Allowance
FBR      Federal Benefit Rate
OASDI    Old-Age, Survivors and Disability Insurance
OIG      Office of the Inspector General
SID      Supplemental Security Income Data
SSA      Social Security Administration
SSI      Supplemental Security Income
SSN      Social Security Number
UMR      Unearned Income Reduction
U.S.C.   United States Code
                                                                     Appendix B

Scope and Methodology
To accomplish our objective, we:

 Reviewed applicable sections of the Social Security Act and Social Security
  Administration (SSA) regulations, rules, policies, and procedures.
 Reviewed relevant reports issued by the Office of the Inspector General.
 Reviewed SSA’s controls regarding current beneficiaries receiving Cost of Living
  Adjustment increases.
 Interviewed SSA regional staff regarding Supplemental Security Income (SSI)
  computation of unearned income.
 Obtained a data extract from 1 payment record segment identifying 495 concurrent
  beneficiaries in current payment status (as of March 2009) whose SSI payments
  appeared to be offset by Old-Age, Survivors and Disability Insurance (OASDI)
  amounts that were less than the monthly benefits SSA actually paid.
    We excluded five records from further consideration that belonged to individuals
     with multiple Social Security numbers that were identified during our prior audit
     Multiple Benefit Payments to Same PO Box Address (A-06-08-18097). During
     that audit, we requested SSA take action to correct payment errors to these five
     beneficiaries.
    We excluded another 152 records from further consideration after determining
     unearned income offset computation errors did not actually occur. In most
     cases, SSA approved the individuals for disability benefits, but the payments
     were not scheduled to begin until after March 2009. These individuals’ OASDI
     payment records indicated they were in current payment status, which provided
     the false indication that the $0 OASDI benefit amount used in the March 2009
     SSI unearned income offset computation was erroneous.
 Analyzed payment records pertaining to the remaining 338 beneficiaries.
We tested the data obtained for our audit and determined it was sufficiently reliable to
meet our objective. We performed our audit between April and June 2009 in Dallas,
Texas. The entities audited were the field offices and program service centers under
the Deputy Commissioner for Operations; and the Offices of Retirement and Survivors
Insurance Systems, Disability Systems, and Applications and Supplemental Security
Income Systems under the Deputy Commissioner for Systems. We conducted this
performance audit in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objective. We believe the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objective.
                  Appendix C

Agency Comments
                                          SOCIAL SECURITY

MEMORANDUM


Date:      September 15, 2009                                                      Refer To: S1J-3

To:         Patrick P. O'Carroll, Jr.
            Inspector General

From:       Margaret J. Tittel /s/
            Acting Chief of Staff

Subject:    Office of the Inspector General (OIG) Draft Report, “Supplemental Security Income
            Overpayments to Concurrent Beneficiaries Resulting from Incorrect Benefit Calculations”
            (A-06-09-29103)—INFORMATION


           Thank you for the opportunity to review and comment on the draft report. We appreciate OIG’s
           efforts in conducting this review. Attached is our response to the report recommendations.

           Please let me know if we can be of further assistance. Please direct staff inquiries to
           Candace Skurnik, Director, Audit Management and Liaison Staff, at (410) 965-4636.

           Attachment




                                                           C-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL’S DRAFT REPORT,
“SUPPLEMENTAL SECURITY INCOME OVERPAYMENTS TO CONCURRENT
BENEFICIARIES RESULTING FROM INCORRECT BENEFIT CALCULATIONS”
(A-06-09-29103)

We have reviewed the draft report and our responses to the specific recommendations are
provided below.

Recommendation 1

Review the 7,214 cases provided and take appropriate action to correct the errors and prevent
future errors.

Comment

We agree. By December 2009, we will complete the review of the cases and take action to
correct the errors and to prevent future overpayments.

Recommendation 2

Take action to correct the system error involving beneficiaries whose Supplemental Security
Income (SSI) payment record contains an unearned income reduction indicator code of “Y” or
implement compensating controls to timely identify and correct these errors on individual
payment records.

Comment

We agree. We expect to implement the necessary system correction by the end of September
2009.

Recommendation 3

Take action to correct the system error that results in erroneous deletion of the Supplemental
Identification line from the Master Beneficiary Record of concurrently entitled beneficiaries or
implement compensating controls to timely identify and correct these errors on individual
payment records.

Comment

We agree. We expect to implement the necessary system correction by the end of September
2009.




                                               C-2
Recommendation 4

Take action to correct the system error that prevents accurate computation of the unearned
income offset for concurrently entitled individuals receiving Old-Age, Survivors and Disability
Insurance benefits under one Social Security number (SSN) and SSI payments under a different
SSN, or implement compensating controls to timely identify and correct these errors on
individual payment records.

Comment

We agree. We expect to implement the necessary system correction by the end of September
2009.

Recommendation 5

Take action to ensure that our records pertaining to individuals assigned multiple SSNs are
appropriately cross-referenced to each other.

Comment

We agree. We expect to implement the necessary system correction by the end of September
2009.




                                              C-3
                                                                       Appendix D

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Ron Gunia, Director, Dallas Audit Division

   Jason Arrington, Audit Manager

Acknowledgments

In addition to those named above:

   Wanda Renteria, Senior Auditor

For additional copies of this report, please visit our web site at www.ssa.gov/oig or
contact the Office of the Inspector General’s Public Affairs Staff Assistant at
(410) 965-4518. Refer to Common Identification Number A-06-09-29103.
                            DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
